CERTIFICATE OF COMPLIANCE
No.:
KAREN KHAN,
Petitioner
v.
UNITED STATES,
Respondent

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains 10,180 words, excluding the parts of the Petition that are ex­
empted by Supreme Court Rule 33.1 (d).
Petitioner’s application to file a Petition up to 1500 words in excess of the 9000 words
was granted on June 7, 2019, by the Chief Justice.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 24, 2019

Karen Khan
P.O. Box 1991
Poughkeepsie, NY 12601
Phone: 845-233-0744

